<html>
<title> - HOW TO IMPROVE THE EFFICIENCY, SAFETY, AND SECURITY OF MARITIME TRANSPORTATION: BETTER USE AND INTEGRATION OF MARITIME DOMAIN AWARENESS DATA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 HOW TO IMPROVE THE EFFICIENCY, SAFETY,
                AND SECURITY OF MARITIME TRANSPORTATION:
                     BETTER USE AND INTEGRATION OF
                     MARITIME DOMAIN AWARENESS DATA

=======================================================================

                                (113-33)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
82-266                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a>  

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        RICK LARSEN, Washington
PATRICK MEEHAN, Pennsylvania         TIMOTHY H. BISHOP, New York
STEVE SOUTHERLAND, II, Florida,      LOIS FRANKEL, Florida
  Vice Chair                         CORRINE BROWN, Florida
TOM RICE, South Carolina             JANICE HAHN, California
TREY RADEL, Florida                  NICK J. RAHALL, II, West Virginia
MARK SANFORD, South Carolina           (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Rear Admiral Mark E. Butt, Assistant Commandant for Capability, 
  United States Coast Guard......................................     2
Stephen L. Caldwell, Director, Homeland Security and Justice 
  Issues, United States Government Accountability Office.........     2

                                Panel 2

Bill Vass, CEO, Liquid Robotics..................................    23
Steve Morrow, President and CEO, Insitu, on behalf of the 
  Association for Unmanned Vehicle Systems International.........    23
Lisa Hazard, Operations Manager, Coastal Observing Research and 
  Development Center, Scripps Institution of Oceanography, 
  University of California, San Diego............................    23
Newell Garfield, III, Ph.D., Director, Romberg Tiburon Center for 
  Environmental Studies, San Francisco State University..........    23

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. John Garamendi, of California...............................    39

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Rear Admiral Mark E. Butt........................................    40
Stephen L. Caldwell..............................................    55
Bill Vass........................................................    73
Steve Morrow.....................................................    78
Lisa Hazard......................................................    80
Newell Garfield, III, Ph.D.......................................    88

                       SUBMISSIONS FOR THE RECORD

Rear Admiral Mark E. Butt, Assistant Commandant for Capability, 
  United States Coast Guard:

    Responses to requests for information from:
        Hon. Duncan Hunter, a Representative in Congress from the 
          State of California, regarding the number of legacy 
          Coast Guard vessels with SeaWatch......................     7
        Hon. Janice Hahn, a Representative in Congress from the 
          State of California, regarding grain-shipment safety 
          zones in the Pacific Northwest and how the Coast Guard 
          respects the First Amendment rights of water picketers.16, 17
        Hon. John Garamendi, a Representative in Congress from 
          the State of California, regarding how close picketers 
          are allowed to get to ships in the Pacific Northwest...    17
    Responses to questions for the record submitted by Hon. John 
      Garamendi..................................................    46
Hon. John Garamendi, request to submit a written statement from 
  the International Longshore and Warehouse Union................    93

[GRAPHIC] [TIFF OMITTED] T2266.001

[GRAPHIC] [TIFF OMITTED] T2266.002

[GRAPHIC] [TIFF OMITTED] T2266.003

[GRAPHIC] [TIFF OMITTED] T2266.004

[GRAPHIC] [TIFF OMITTED] T2266.005

[GRAPHIC] [TIFF OMITTED] T2266.006



                 HOW TO IMPROVE THE EFFICIENCY, SAFETY,
                        AND SECURITY OF MARITIME
                     TRANSPORTATION: BETTER USE AND
                     INTEGRATION OF MARITIME DOMAIN
                             AWARENESS DATA

                              ----------                              


                        WEDNESDAY, JULY 31, 2013

                  House of Representatives,
           Subcommittee on Coast Guard and Maritime
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order. All right. 
There are no Democrats here, but we've been advised. If that's 
OK, we can start anyway. Excuse me for not wearing a tie. I had 
some neck surgery, and I'm trying to keep the incision open so 
it can fix itself.
    The subcommittee is meeting this morning to review the 
status of Coast Guard maritime domain awareness programs. The 
Coast Guard operates a broad array of systems and sensors to 
gather data to enhance the Service's awareness of activities in 
the maritime domain. At a time when budgets are being cut and 
the Coast Guard is being stretched thin, maritime domain 
awareness, MDA, provides critical information to more 
efficiently deploy personnel and assets.
    Although the Service has made progress over the last decade 
in acquiring new technology to collect, integrate, and 
disseminate MDA data, implementation has been slow, several 
gaps still exist, and budget realities mean the Coast Guard 
will struggle to achieve its goals for the MDA program.
    The Coast Guard currently attracts large commercial vessels 
and other potential threats in the maritime domain, but the 
Service still lacks a single system of--capable of fully 
fusing, filtering, and displaying all MDA information in common 
operating picture.
    The concept of the common operating picture was also at the 
center of the Coast Guard's effort to recapitalize its aging 
and failing legacy assets. The goal was to acquire new C4ISR 
technology that would enable--recapitalize vessels and aircraft 
to collect and fuse MDA information into a common operational 
picture, and then share with one another and among shore-side 
installations.
    The Coast Guard has made progress towards that goal but has 
yet to fully achieve it. The GAO recently reported that many 
recapitalized assets could not fully share data because they 
operate different C4ISR systems at different classification 
levels.
    Complicating the Coast Guard's efforts to improve MDA is 
the current budget environment. Budget constraints have forced 
the Coast Guard to drop plans to install upgrades to C4ISR 
systems on its aircraft and vessels in the future. Given this 
development, I am interested in hearing how the Service plans 
to ensure new assets acquired over the next 20 years will 
achieve their full capabilities and not suffer from obsolete 
technology.
    I encourage the Coast Guard to review its MDA and C4ISR 
programs to improve ways to deliver these capabilities more 
efficiently. Our second panel of witnesses comprises a cross-
section of MDA stakeholders and private industry and academia. 
I look forward to their testimony on new technologies that 
could improve the Coast Guard's MDA efforts in a cost-effective 
manner.
    Maritime domain awareness is a critical tool to maximize 
the Coast Guard's capabilities, to safeguard American interests 
in U.S. waters and on the high seas. If effectively 
implemented, MDA can improve the efficiency, safety, and 
security of maritime transportation.
    I am anxious to hear from the witness on what they think 
the future holds for the MDA programs and how we can best move 
forward to make sure the Coast Guard achieves the goals it has 
for the MDA--for MDA.
    With that, I yield to the ranking member, who is not here, 
so I will recognize Mr. Garamendi for an opening statement when 
he arrives.
    Our first panel of witnesses today are Rear Admiral Mark 
Butt, Assistant Commandant for Capability of the United States 
Coast Guard and Mr. Stephen Caldwell, director of Homeland 
Security and Justice Issues at the United States Government 
Accountability Office.
    Admiral Butt, you are recognized for your statement, and 
thank you both for being here. I apologize for not having more 
of my side and the other side here, but that's OK. The people 
that are important are sitting to my sides here, so they're 
here.

 TESTIMONY OF REAR ADMIRAL MARK E. BUTT, ASSISTANT COMMANDANT 
   FOR CAPABILITY, UNITED STATES COAST GUARD; AND STEPHEN L. 
   CALDWELL, DIRECTOR, HOMELAND SECURITY AND JUSTICE ISSUES, 
         UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE

    Admiral Butt. Good morning, Chairman Hunter. Thank you for 
the opportunity to testify today and for your continued 
advocacy, interest, and oversight--yes, sir.
    Is that better? OK.
    And for your continued advocacy, interest, and oversight of 
the Coast Guard's command and control systems. As Assistant 
Commandant for Capability, my primary responsibility is to 
identify and provide Coast Guard capability and capacity to 
meet mission requirements. This includes the very important 
ability to discover, correlate, and distribute maritime threat 
data and operational resource availability to and from the 
operational assets of both the Coast Guard and other Government 
agencies. I have a brief opening statement and would like to 
submit my written testimony for the record.
    Whether responding to a distress call, interdicting an 
enlisted vessel, or investigating a maritime infrastructure 
threat, accurate and timely information gathering and sharing 
across agency domains is critical for operational 
effectiveness. The dynamic and demanding operating environment 
in the maritime domain requires that our capabilities be 
interoperable and flexible in order to deliver the right 
capability to the operational commanders at the right time.
    The Coast Guard has adopted a strategy that identifies and 
fields C4ISR capabilities specific to the asset's environment 
and operational needs. We are leveraging advanced technologies 
and working closely with our Department of Homeland Security 
and the Department of Defense partners to field C4ISR solutions 
that fit, are sustainable, and provide us with effective C4ISR. 
Allow to me to highlight a few of these.
    The simple component of our effective C4ISR is searchable 
and discoverable data managed, moved, and formatted within the 
common operating picture. This provides operational commanders 
and senior decisionmakers with mission critical information 
necessary to identify threats and coordinate operations.
    The Coast Guard common operating picture allows data 
exchanges and system interoperability among shore, surface, and 
aviation assets as well as with external partners. It 
integrates automatic data feeds from nationwide automatic 
identification system, the long-range identification and 
tracking systems, additionally, integration of data from 
customs and border protection, Department of Defense, and other 
State and local agencies. C4ISR systems improves situational 
awareness and collaboration across the services.
    At our shore command centers, the WatchKeeper System allows 
for vessel track viewing and is accessible by Federal, State, 
and local partners allowing for coordinated response to port 
security threats and search and rescue cases. Airborne HC-144 
aircraft with Mission System Pallets and HC-130J aircraft 
equipped with the Mission System suite are capable of real-time 
upload of the common operating picture track data and downlink 
of sensor data on tracks of interests to operational 
commanders.
    Aboard the Fast Response Cutters, SeaWatch displays common 
operating picture data allowing commanding officers to view 
vessel tracks and associated intelligence allowing for 
interdiction prioritization. These capability reflect the Coast 
Guard's path to put the right information at the right place at 
the time for our frontline personnel to make decisions that 
impact maritime safety and security.
    As the Coast Guard looks to the future, we recognize the 
challenges and opportunities ahead and are focused on 
continuing efforts to improve collaboration and 
interoperability. Our effort with CG1 View does this. CG1 View 
provides operators with a customizable desktop interfaces which 
allows a user to view various sensor and system inputs, such as 
Search and Rescue Optimal Planning System and Rescue 21 inputs 
for search and rescue, customs and border protection source 
passenger and cargo screening data for security operations, and 
Blue Force tracking data for coordinated, multi-unit, multi-
agency interdiction operations.
    In addition to improved situational and maritime domain 
awareness, the Coast Guard is expanding its network-based 
connectivity capable to improve direct unit-to-unit 
communications as well as the timely exchange of information 
and C4ISR data. This approach, among a number of other ongoing 
efforts is the Coast Guard's path to a continuing effort to 
place the right information at the right place at the right 
time for the right people to make decisions that impact 
maritime safety and security.
    Thank you again for this opportunity to testify. I look 
forward to answering your questions.
    Mr. Hunter. Thank you, Admiral.
    Mr. Caldwell, you are now recognized. You're probably in 
high demand, director of Homeland Security and Justice for the 
GAO. There's not much going on there these days.
    Mr. Caldwell. Thank you very much, Mr. Chairman. We 
appreciate that. We've got some other directors, but it's a 
busy time, and in fact, I'm testifying before Mr. Meehan's 
committee on the Homeland Security Committee tomorrow.
    Anyway, thank you, Chairman Hunter and also Mr. Meehan, for 
being here and inviting GAO to testify. We're going to be 
talking about our the Coast Guard's efforts to develop a common 
operating picture, which is one of the important components of 
maritime domain awareness. In general, the COP, just to put it 
in simple terms, is a graphic display of information from a 
number of sources. It's customized by a wide variety of 
different Coast Guard users for different purposes and 
functions, to execute the Coast Guard's missions.
    My statement today is going to focus on four different 
systems that contribute to the COP. The first of these is the 
C4ISR project. This is one of the biggest ones, within the 
larger Deepwater recapitalization program. This C4ISR program 
was designed, among other things, to make vessels and aircraft 
both producers and consumers of the COP.
    The WatchKeeper project is the second one. This is within 
the larger interagency operations center program, and this was 
to gather maritime domain awareness information and to share it 
among not just Coast Guard and other Federal agencies, but 
among State and local authorities within key ports.
    The third system we looked at was the Enterprise Geographic 
Information System or EGIS, and this is a COP viewer that the 
Coast Guard started deploying in about 2009, used mainly by 
onshore units to customize the COP for mission planning and 
execution.
    And then finally we looked at ``Coast Guard One View'' in 
the earlier part being rolled out. This is the Coast Guard's 
newest COP viewer that was just mentioned by Admiral Butt.
    So overall, in terms of looking at these four systems and 
some of the things they've delivered, there certainly has been 
a lot of progress through these systems and others in improving 
the COP within the Coast Guard. They certainly have added more 
useful data in terms of additional sources, things like vessel 
locations and Blue Force tracking, which is the ability to 
track our Coast Guard and other friendly boats.
    Also they've increased the COP capability by improving the 
satellite communications infrastructure. They've expanded the 
number of COP users by putting them out on more workstations 
out there, so it could be used at most desktops within the 
Coast Guard, both headquarters and in the field.
    However, for all four of the systems we looked at, a common 
problem that we found related to weaknesses in acquisition 
management. In general, the Coast Guard wasn't following its 
acquisition plans or guidance in several different ways. Some 
problems were more significant than others. But these led to 
problems such as an acquisition strategy for C4ISR that was 
repeatedly changed, so a lot of the vessels and aircraft that 
were, at one point, going to have the same system having 
different systems, which limits information sharing and 
increases the time to pass data across some of these assets.
    Another problem was that requirements of non-Coast Guard 
users were not solicited when the interagency operational 
centers were being developed. This has led to the WatchKeeper 
system, which is one of the key COP systems there, not being 
used by the other maritime stakeholders it was intended for, so 
the information sharing in those centers has not been realized.
    Also, another problem was the implementation of EGIS that 
was slow and inaccurate. Because of the computer systems it was 
put on, it degraded or it even crashed other computer systems 
that were in use.
    And then finally with EGIS, some of the documentation for 
managing that acquisition were not prepared in the proper 
order. Variations were made from established policy. If those 
were made and fully documented, we would have been fine with 
those, but they weren't. So some of the alternative systems 
were not examined, and the costs are still largely unknown, at 
least when we looked at this system last year.
    So overall, these problems have led to a COP that's less 
comprehensive, less integrated, and less timely than what we 
would have expected looking at the earlier planning documents. 
In summary, those high-level plans and requirements that were 
developed between 2004, 2005 would have led to a COP that was 
seamless across the locations and platforms. While we're making 
advances, the COP has not realized its full potential at this 
time. Thank you very much. Be happy to answer any questions.
    Mr. Hunter. Thank you both. I just have kind of an opening 
gambit here. I've had a chance to sit on the Armed Services 
Committee. I've had a chance to do time overseas, and what you 
see is the different services having problems when they try to 
get C4ISR, and they try to do their own common operating 
picture, and they have Blue Force Tracker, and they combine 
other stuff, and you do the intel fusion, and you want to be 
able to see your UAVs and your good guys and your bad guys and 
be able to click here and see what grid square holds which 
guys, and it seems like the better technology gets.
    And the cheaper it gets, the more robust it gets, the 
harder it gets for our services to be able to get one or two 
contractors together, be they defense contractors or otherwise, 
and form a picture that any corporation has day in and day out. 
UPS, for instance, tracks thousands of trucks and vans, 
airplanes, products, tracks the weather, does everything that 
they need to do for a global corporation. But when it comes to 
things like making sure that we can see what parts of the 
oceans have oil in them or what parts of the ocean have bad 
things happen, we're unable to do it.
    We spend a lot of money, we come up short every time, but 
the lucky part for you is you just started. You haven't wasted 
billions of dollars yet like the Army and some other services 
have on doing things that don't work yet. OK? So basically what 
we want to get into is we just want to make sure that you get 
it right from the start, because it shouldn't be that hard to 
do.
    It may be that hard to do within the confines of Government 
contracting, but my advice would be just to work through it and 
do what any corporation in your shoes would have to do and get 
something that is cost effective and relevant and able to be 
upgraded over time so that it never gets old. It's open source, 
you can plug stuff into it, and it's secure.
    But those things aren't that hard. Those sound hard, but 
they might have been in 2003, but they're not in 2013. So the 
question is this: In 2011, this is--a few other questions, but 
here's the starting one here, Admiral. In 2011, GAO found that 
after Coast Guard abandoned its goal of building a single, 
fully interoperable C4ISR system--in case anybody doesn't know, 
that's command, control, computers, communication. So those are 
your C4, then intelligence, surveillance, and reconnaissance is 
the ISR part. C4ISR strategy--in all vessels and aircraft, 
we're using the same C4ISR system.
    So have you decided on a system to be used by the entire 
Coast Guard?
    Admiral Butt. Thank you, sir. In 2004--and you look at the 
documentation--the Coast Guard was going down the same path as 
the other services. What we're going now on is exactly looking 
at that open architecture type support that industry uses to 
set up, because not only do we have to meet with the DOD 
services, we have to meet with Federal, local, and State 
partners. So we have both the class and the unclass COPS that 
we have to worry about and communicate so that the----
    Mr. Hunter. I'm going to interrupt if you don't mind. So 
are you saying that it's up the Coast Guard then to make sure 
that they match whatever every single State chooses to use for 
their local policing forces? So you have to have software that 
then opens up to every single coastal State or city or 
municipality, organization?
    Admiral Butt. Sir, in the port environment, for us to be 
able to work with all those partners, somebody is going to have 
to do that. And so the way we're setting up the WatchKeeper 
program is part of is to be--driving towards that open 
architecture to be able to take disparate inputs and then 
correlate both the track data, sensor data, as well as various 
databases and be able to put it in a format where the Coast 
Guard watch standard and the IOC is then able to use that 
information in the----
    Mr. Hunter. All right. That will never work. There's no way 
you can have a software that interacts with every single 
agency, organization, or municipality that may or may not exist 
among the coastlines to make sure that you don't miss anybody.
    Admiral Butt. Well, industry, sir, is coming out with 
standards. They're standards to set to, so that's what we're 
building the architecture to.
    Mr. Hunter. What standards? And when you say industry, 
which part of the--because I'm in industry, and I know 
standards.
    Admiral Butt. It's the Ozone Widget Framework, sir.
    Mr. Hunter. Say it again.
    Admiral Butt. Ozone Widget Framework.
    Mr. Hunter. Ozone Widget Framework.
    Admiral Butt. Widget Framework.
    Mr. Hunter. OK.
    Admiral Butt. Is the standards for it, so as long as the 
other partners are going towards that standard, then it would 
work.
    Mr. Hunter. Who are the other partners?
    Admiral Butt. Whether it be State, whether it be Federal 
partners, which we're working with S&T on to make sure that the 
DHS work in that direction or it would be local partners 
getting grants.
    Mr. Hunter. OK. So DHS will require anybody that gets 
Federal money to comply, theoretically, with Ozone Widget open 
architecture?
    Admiral Butt. That's the assumption we're working under, 
sir.
    Mr. Hunter. And that's all going to fit into WatchKeeper?
    Admiral Butt. That is the direction we're moving, sir.
    Mr. Hunter. OK. So you have decided? So you've decided on a 
technology and an architecture now going forward?
    Admiral Butt. That is the direction we're working, yes, 
sir.
    Mr. Hunter. Do all of the vessels and aircraft--are they 
going to get this system onboard?
    Admiral Butt. They won't get WatchKeeper. They will--what 
we're----
    Mr. Hunter. Not the WatchKeeper system, but they'll have a 
sensor suite to interact----
    Admiral Butt. The plan is to move--yes, sir. Every one of 
the major cutters, the patrol boats, and our aircraft to have 
in the COP available.
    Mr. Hunter. So how many would you say have it now?
    Admiral Butt. The HC-144s with the missionization pallet 
would have it and the C-130Js have it.
    Mr. Hunter. So if you gave me numbers, 5 out of 50 
airplanes and vessels or what would you say?
    Admiral Butt. Eighteen of the medium range planes, 18 of 
18, and then C-130s, we've got 8 or 9 out of 22.
    Mr. Hunter. And then vessels?
    Admiral Butt. The vessels--the FRCs that are coming online 
all have it. Some of the legacy vessels have been transitioned 
to SeaWatch, and I'll have to get that for the record.
    [The information follows:]

        As of 01 August 2013, the following legacy Coast Guard 
        vessels have SeaWatch installed:
        <bullet> LSix 378-foot: Sherman, Mellon, Midgett, 
        Morgenthau, Munro, Boutwell
        <bullet> LOne 270-foot: Legare

    Mr. Hunter. FRCs come out of Bollinger with this in them?
    Admiral Butt. Yes, sir.
    Mr. Hunter. Gotcha. So they actually install this at the 
shipyard?
    Admiral Butt. Yes, sir. It's part of the FRC architecture.
    Mr. Hunter. Gotcha. OK.
    Mr. Garamendi has arrived. I will yield to him for 5 
minutes.
    Mr. Garamendi. Mr. Chairman, thank you for starting the 
meeting. As I think you know and perhaps the audience does not, 
the Democratic Caucus just concluded a meeting with the 
President, and it's not good to walk out on the President.
    But it's not good to delay getting here, but among the 
choices, Admiral and Mr. Caldwell, my apologies for not being 
here early on.
    Mr. Chairman, there's a statement I'd like to submit to the 
record from the International Longshore and Warehouse Union. 
Without unanimous consent, I will take it up when he gets back.
    My own statement, I won't read it, but I'll ask consent to 
get that in the record also for the record.
    I'm trying desperately to catch up here with the questions 
of--there are some questions that my very capable staff has 
prepared, and I'll go with those. If they've been asked and 
answered, then let's not proceed with those.
    This one deviates--the Coast Guard deviation from internal 
acquisition guidance. I think, Mr. Caldwell, you've raised this 
issue. The GAO has criticized the Coast Guard from--for 
common--deviating from his own internal acquisition guidance 
for the development of the program requirements for the new 
C4ISR assets to improve its MDA capabilities.
    Admiral, do you agree with the critique that has been given 
by the GAO?
    Admiral Butt. Sir, in general, I agree with it. The 
criticism on the documents and the sequencing, there are 
definitely reasons as we're trying to push forward that would 
allow documents to go out of sequence, and I'm not so sure that 
the process actually calls for that, but in general, I agree 
with the critique.
    Mr. Garamendi. And that--how about the software systems? 
Are they moving forward appropriately?
    Admiral Butt. The software systems----
    Mr. Garamendi. Coast Guard One View software.
    Admiral Butt. Yes, sir. Coast Guard One View we're moving 
forward with, and we're getting the documentation in place. The 
current plan would be to start fielding it at the end of 2014.
    Mr. Garamendi. Next question that was developed was the 
viability of the systems--system of systems concept. The former 
Deepwater acquisition program was sold to Congress on the idea 
that it would be--would provide the Coast Guard with a new 
system of systems capability, that this new capability would 
allow greatly enhanced ability of the Coast Guard to 
communicate and function. I think this may have been a question 
that was just taken up by the Chair.
    If not, my question then is: Admiral, what is the official 
position of the Coast Guard with respect to the system of 
systems concept? Apparently, that was not asked.
    Admiral Butt. Sir, the system of systems concept we're 
still going forward with, but over the last 10 years, the 
technology has changed, so the architecture of that system of 
systems is evolving. So our goal is to come up with an open 
architecture system that's going to be able to be moved forward 
to the future where we can do technology upgrades to it and not 
be tied to any one vendor so that we can take different inputs 
both from databases as well as sensors and be able--give that 
to the decisionmaker.
    Mr. Garamendi. This has been put off to be worked on in the 
future. Given the budgets that seem to be present in the 
foreseeable future, what effect would this have on the domain 
awareness--maritime domain awareness?
    Admiral Butt. Well, right now, the systems we're putting in 
place have been continuing to improve our maritime domain 
awareness, and for an example I can give you, my daughter is a 
watch scanner down at Sector New Orleans, and she was there 
during Deepwater Horizon, and she's still down there when we 
had that oil well that--or that gas well that we had the 
problems with last week.
    So in discussing, there's a night and day difference of 
sector New Orleans MDA capability for those watch standards 
between this last week event which is very akin to Deepwater 
Horizon, although it wasn't near as catastrophic. So what 
feedback we're getting is it's improving, and we're going to 
continue to keep improving it. The advantage of going to open 
architecture and following the industry standards is I think we 
can do it much, much cheaper than what the original estimates 
were.
    Mr. Garamendi. Mr. Caldwell, what's your view of all of 
this?
    Mr. Caldwell. Well, with the C4ISR, it's a very large 
problem. Part of it is the management of the acquisition, and 
part of it is just keeping up with the speed of technology. 
That program--if you look at the baseline for when it was 
created--shows the costs have gone up 86 percent from the 
baseline, and completion slipped from 2014 to 2027 in the 
revised baseline.
    There's issues managing that acquisition, but the bigger 
challenge to talk about at the higher level, it's keeping up 
with the speed of technology, at the same time complying with 
the acquisition regs, which is not an easy thing to do. 
Obviously it's even more difficult doing within the constraints 
of the current budget environment which is lower than it has 
been traditionally.
    Mr. Garamendi. So they'll need flexibility? Is that what I 
heard you say?
    Mr. Caldwell. They will, and in terms of the Coast Guard 
One View, which is the newest viewer we looked at, we wouldn't 
have had an issue if the Coast Guard upfront had said, ``We're 
going to deviate from certain parts of the acquisition process 
for these reasons.'' But those justifications weren't developed 
and documented until more than a year after the program 
decisions had already been made.
    Mr. Garamendi. OK. I'll yield back, and then when our 
colleague finishes, I'll come back for another round of 
questions.
    Mr. Hunter. Mr. Meehan is recognized.
    Mr. Meehan. Thank you, Mr. Chairman, and let me thank you, 
Admiral, for your service to our country and in uniform and 
those of your colleagues who are here, and I appreciate the 
tremendous challenges that are faced in securing our homeland, 
particularly on its borders.
    One of the areas that frustrates me frequently, though, in 
my capacity in homeland security as well is the myriad efforts 
that we have to sort of integrate State and local and our 
partners in a way that effectively works, not only that we 
integrate them so that they effectively communicate among each 
other, but that we're actually funding missions in which 
there's desired information that's being put to use.
    We're having great frustration in dealing with this whole 
concept of fusion centers in which we are supposed to be 
collocating Federal, State, and local assets, and they're 
supposed to be discussing things among each other, but it's a 
hard time getting a commonality of agreement about what the 
real purpose is, what the mission is.
    And yet we go back, unfortunately--I participated in the 
hearings on homeland in which we dissected the failure to 
communicate about certain bits of information, which caused 
many people to believe that some of the issues in Boston 
recently may have been able to have been maybe addressed 
perhaps if we had better communication.
    So I'm really asking you just about the WatchKeeper 
program. Now my own port of Philadelphia--when I was the U.S. 
attorney, we had a great relationship with the Coast Guard, 
they were there, they were partners in a variety of different 
things, but I don't know how you're operating today with the 
fusion center, which if I'm correct is probably just a few 
blocks away if you known about what's going on in Philadelphia. 
What's your experience overall with the ability of State and 
locals to become partners with your WatchKeeper program and it 
isn't giving them information that people are finding necessary 
and relevant to their missions?
    Admiral Butt. Sir, it's a great question, and Philadelphia 
and the whole sector, Delaware Bay layout is very interesting, 
because you have the tri-State region, so it's probably one of 
our hardest AORs to actually go and try to figure out the 
fusion.
    What WatchKeeper has done for us, again, is to put the 
backbone in place so that we can pull sources from sensors and 
from databases to be able to provide the users. So that's--the 
baseline WatchKeeper is in place and starting to do that. Now 
the front end of that, to give the users the ability to be able 
to use that information, is what we're working on with CG1 
View, because the viewer for WatchKeeper, as it was delivered, 
as my daughter puts it, is clunky. So this was--gives us the 
ability to actually gets toward that information better.
    Now the other----
    Mr. Meehan. What is it that you're trying to bring, though, 
to the attention of, say, a local fusion center? That's what 
I'm looking at. We know--is it the nature of the type of cargo 
that's coming up the port or----
    Admiral Butt. It can be that. It's basically anomaly 
detection is what you're looking for. Do you have boats that 
are in places they shouldn't be? Do you have cargoes or 
passenger manifests or people coming in that it doesn't make 
sense and being able to then get that information, raise those 
flags, and get that information to the decisionmakers that can 
do something about it. That's really the circle that we're 
talking about here.
    Mr. Meehan. But what it seemed to me--I mean we're talking 
about, as you stated, the tri-State region in which you're--you 
could spend as much time sending that information, trying to 
have somebody figure out what it means as it would be you would 
be you would scramble your own asset out there to do a visual 
inspection and look at it if you saw an anomaly, right?
    Admiral Butt. And that would definitely be one of the tools 
the operational commander could use depending on the anomaly, 
yes, sir. So what we're trying to do is to get that so we can 
fuse it. Now with WatchKeeper, we put the baseline capability 
out. Now I need to back, and we need to talk to our partners 
across the board, capture their needs, and be able to get it so 
we can get that data fused.
    We have a program up in Seattle right now that we're 
working with DHS S&T on through the university programs and the 
Port of Seattle to do just that, is to find the other partners' 
needs up in the Seattle area and expand it out. The other thing 
we've put into place Coast Guard-wise is using a COPs tool--is 
the ability to capture that information and prioritize it.
    We didn't have that business process in place till 
recently. So now I have a mechanism for going out through DHS 
S&T to start capturing our port partner needs, and we have a 
tool for tracking and prioritizing the incorporation of those 
needs----
    Mr. Meehan. In other words, you would work with the other 
participants in the activity of that port to ask what it is 
that they would be looking for in the form of specific 
information?
    Admiral Butt. Specific information or from the databases or 
sensor information from the cameras and radars, yes, sir.
    Mr. Meehan. OK. Well, I'm--maybe Mr. Caldwell--my time is 
up, but you've looked at this issue from GAO, and it points 
to--I mean I don't think it's a lack of effort on the part of 
the Coast Guard. I think it's a lack of the ability for some 
kind of fusion to take place in which information is being 
developed that pertinent and relevant to what the State and 
locals are supposed to be generating, and we're--it's as much a 
problem on the State and local side. I'm looking for them to 
define what we're trying to accomplish. In the end, what is it 
that we are doing? Can you tell me what you found by your 
review with the GAO in this issue?
    Mr. Caldwell. Yes. In the port environment, the fusion 
centers are generally called interagency operation centers, and 
there's some very impressive ones out there made of brick and 
mortar. The money ran out, so they went to a more virtual 
model. But if you went to one of the earlier, more successful 
ones like SeaHawk in Charleston, it was relatively expensive to 
build and operate.
    There was a lot of money put into it as a prototype, and 
those funds actually included some operating costs to get State 
and locals in there 24/7. You had a very healthy kind of 24/7 
environment. Moving forward, we're no longer funding State and 
locals to actually participate in these things in terms of 
those salaries, so you get a little bit of a drop in----
    Mr. Meehan. They dropped off? Did you see a big drop-off 
from State and locals?
    Mr. Caldwell. We didn't track that in actual numbers, but 
just as a general trend, I think we are seeing less 
involvement. We were just in San Diego, for example, about a 
month ago doing some of our audit work on the small vessel 
threat.
    And one of the issues there is that State and locals are 
not there as often as they used to be. They do have enough room 
in that interagency operating center that they can ramp up and 
they can surge and they can add places for other Federal 
agencies like the Navy or FBI or the Port of San Diego Harbor 
Police to come in there. We did still find there was a healthy 
relationship out there, but in terms of the actual using the 
WatchKeeper software to share information, we did not find 
that.
    The good news about WatchKeeper is it will standardize some 
of the command and control systems throughout the Coast Guard 
sectors, because the plan is to get it out to all 35 Coast 
Guard sectors. The jury is still out on whether there will ever 
be the interagency Federal, State, local that they were 
intended to be. There were 233 port partners who had access to 
the WatchKeeper system; 192 of those had never even logged onto 
the system----
    Mr. Meehan. And that goes into the point that I was making 
earlier about we're generating information, but it isn't 
relevant to--and in a time in which we're already sort of 
collocating facilities, the cost associated to the placement of 
those is a precious item, and that's why I used the example. 
And Admiral, I would appreciate it if you would just look into 
how the fusion center and your Philadelphia-based efforts are 
collaborating.
    I mean one--the idea of getting people from these assets to 
collocate in your facility when right down the street you have 
a fusion center which may or may not be getting the full 
complement of State and locals that they need, seems to me that 
this is the problem that we have, and I don't blame the Coast 
Guard; I blame the totality.
    There's always a competition that's taking place among data 
systems that say, OK, we've got this great data, use our 
system, and people aren't trading information. And most of the 
time, it's not an issue, and we may have that one occasion 
where somebody looks back and says, hey, this information was 
contained in the data system, and had it been appropriately 
communicated, it could have sent a signal to us that we should 
have looked into something, and it's only in the aftermath of 
an incident like Boston that those things make sense.
    So I know there's value, and I appreciate your efforts, but 
I think this is an issue we've got to continue to look at. 
Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Hunter. Thank the gentleman.
    I've got a question. I was out in Palo Alto a few months 
ago, and I saw--in fact, our next panel has some folks from 
Liquid Robotics, and they have these surfboards that--they're 
in the ocean, they have sensors on them, and we stood there, 
and I almost got to meet the guy that invented Java which was 
pretty interesting for a computer science guy. The guy that 
literally invented the programming language called Java was 
at--works there.
    So he was there. He was gone by the time we got done with 
our little tour, but you can look up at the flat-screen TVs and 
you can see and monitor every single one of their floating 
vehicles. You can see them all, literally, at any given time on 
the screen floating around the world. So this--and these aren't 
expensive. It's not crazy to do. In fact, they're extremely 
inexpensive. They can test the water, they have cameras on 
them, they can look at the water, they can see sheen--an oil 
sheen or any other kind of spill on the water.
    They can test the water, they can test weather, they can do 
a lot of different things, and it takes no people whatsoever to 
do those. And you can literally have a thousand of them on the 
ocean at a time or 10,000, however many you may think that you 
need. My question is this: If you were a big corporation and 
your job was to take care of the oceans and to take care of the 
American waters and you had shareholders, what kind of software 
system would you get to do this? Who would you get?
    You might not go to--and Mr. Caldwell, I'd like to ask you 
first. You wouldn't necessarily go to a number of great 
contractors who I will not mention here that a lot of folks 
around here use and are great people. But as a corporation you 
might go to people in industry and get maybe a different look 
at this and a different product. So my question is then: If you 
were in real life and not Government with an infinite supply of 
money and you could go over deadline over and over, and over 
budget over and over and over, but if you were in real life, 
what would you do here?
    Mr. Caldwell. I'm not one of our IT experts within GAO, but 
you're going to need an open architecture so that as things 
change, they can work new systems in and out of it, Web-based, 
cloud-based. But then obviously you've got to ensure a secure 
site if you are doing law enforcement and military missions.
    Mr. Hunter. Admiral.
    Admiral Butt. Sir, specifically when you're talking 
autonomous surface and underwater vehicles, my major concern 
right now as we're trying to figure out how to incorporate this 
into our CONOP is the fact that like with the UASs and the 
national airspace, the technology has gotten way ahead of the 
laws for governing vessels. So what these things are and how 
they can be utilized is still open in a lot of ways. So we're 
not even sure what they constitute right now as far as what 
type of vessel if they're a vessel.
    Mr. Hunter. I'm not talking about you learning how to 
regulate a new and amazing technology. What I'm saying is why 
don't you put it to use.
    Admiral Butt. Well, the question is, sir: If--what it is 
then determines how it can be used. What I'm getting at is the 
first lawyer answer I got on this stuff because it doesn't 
carry cargo and it's not manned is it's sea debris. So now to 
take that a step further, sea debris--I put it in the----
    Mr. Hunter. We are deep in Government time right now. 
That's what that means. You really call it sea debris because 
there's no other nomenclature for it?
    Admiral Butt. That was the legal definition we got back. 
That creates a whole lot of questions when you go that 
direction. So we're in a place where----
    Mr. Hunter. The Government is ridiculous. It really is. 
That is insane, but go ahead. OK.
    Admiral Butt. So figuring out what this stuff is and how it 
can be used comes into play before we actually start utilizing. 
Now can it give me a potential? You betcha, because I see those 
things as potentially being the same----
    Mr. Hunter. Let me ask you. I don't understand. I don't 
understand. Just because we work for the Government--I work for 
the people, you indirectly work for the people--that doesn't 
mean we can't use common sense. So the fact that we don't have 
a definition for something right now that exists in our 
guidebooks that we have to look at to know what things are 
doesn't mean that the Coast Guard shouldn't be jumping on this 
thing before anybody else does.
    The Coast Guard should be the ones who experiment with this 
type of technology, who put it to use, who save a lot of money 
doing it in the beginning. It doesn't have to go through any 
Government contractors at all because it's just out there 
sitting, waiting for you to buy it. You don't have to 
necessarily know what to call it to know that it could save you 
lots of money, make you very efficient and more effective on 
the oceans, right?
    Admiral Butt. Yes, sir. And----
    Mr. Hunter. Because we don't----
    Admiral Butt. Now you're at the R&D phase, and we are 
working with NOA on this program.
    Mr. Hunter. So what----
    Admiral Butt. Because we're trying to define it.
    Mr. Hunter. What I'm getting at, Admiral, is it's too easy, 
meaning you don't necessarily need NOA either. If the Coast 
Guard would just go and get these like other organizations have 
and says let's just use them, you don't necessarily know--have 
to know what to name it yet in the Coast Guard dictionary, 
right? It's obviously not sea debris, right?
    Admiral Butt. That's true.
    Mr. Hunter. It's an unmanned floating vessel, whatever you 
want to call it. I'm sure they'll have a cool name for it. The 
point, though, is that you should be on the cutting edge. These 
things are cheap, it doesn't take any defense contracting to do 
it, you don't have to do anything crazy to bring these onboard, 
to be able to track them on a wall screen. Literally, right 
here if we had a laptop hooked up, we could watch them, watch 
these things float about the ocean.
    My point is this: Working for Government has made everybody 
slow and almost unable--there's no way we can keep up with the 
technology that's out there. So I think the most important 
thing for this entire system is that it's open architecture. It 
has to be open so that anybody over the next 50 years can plug 
in whatever they want to into this, and you can use these 
unmanned floating vessels--there, I just got--UFVs, how about 
that? Unmanned floating vessels. You can use those--you can do 
a lot of different things. Just don't do what the other 
services did. Otherwise you're going to sink billions and 
billions of dollars and have something that does not work, 
because this is hard what you're trying to do, but it's not too 
hard. I mean companies do this all the time.
    Admiral Butt. Yes, sir, and that's why we're working with 
NOA on it to be able to start to understand that what we don't 
have----
    Mr. Hunter. It's not too complicated. I can tell you it's a 
floating surfboard with wings under it that has sensors on top. 
That's all it is. It's not crazy. They can tell you how hot or 
cold the water is and take pictures. It doesn't take a Ph.D. to 
tell you how to use it or implement it, right? It's not that 
hard.
    Admiral Butt. It's not that hard to actually get the stuff 
and have it sensing. The challenge becomes right now in our 
most threat environment, how do I distinguish--if I'm using, 
for instance, sonar data from them, how do I distinguish the 
sound of a fishing vessel that's engaged in legitimate fishing 
versus a fishing vessel that's engaged in trafficking. I know 
there's a fishing vessel there. It triggers that, but it 
doesn't do much than that at this point in time.
    So trying to figure out how that plays in the overall 
scheme of accomplishing the mission is what we're still 
wrestling with. The beauty of it is we're working with NOA to 
get an understanding of the capabilities of these, and then as 
we learn that, we can figure out how to incorporate it into the 
mission set. So I'm not saying that we don't have an intention 
of doing that in the future, but right now we don't have a 
vision of how it helps us accomplish the mission.
    Mr. Hunter. OK. Well, I'd be happy to help you with that.
    Admiral Butt. There's a lot of people, sir, that are--
really want to help us with that.
    Mr. Hunter. I recognize Ms. Hahn if you're ready. If not, I 
can recognize Mr. Garamendi.
    Ms. Hahn. I was born ready.
    Mr. Hunter. Good.
    Ms. Hahn. Thank you, Mr. Chairman.
    So I obviously believe that this security of port should be 
our top priority. Our PORT Caucus, which is now about--actually 
about 90 members strong, Republicans and Democrats who have 
joined together just to focus on our ports. Security is a big 
issue. I represent the Port of Los Angeles, America's port, but 
I also believe that the First Amendment rights of our port and 
maritime workers must be respected, and I was concerned when I 
learned that the Coast Guard issued this new rule expanding 
safety zones around grain vessels in the Pacific Northwest.
    So I'd like to know from you what data that you can provide 
that points to major safety or security issues that have 
surface that would necessitate an expansion of these safety 
zones. And how is the Coast Guard working with ILWU to ensure 
that their First Amendment rights are not infringed upon, 
particularly their need every once in a while to engage in 
water picketing?
    Admiral Butt. Ma'am, I'm going to have to get back to you 
on the record for that. I wasn't prepared to go there.
    Ms. Hahn. On both those questions?
    Admiral Butt. Yes, ma'am. I wasn't ready to go there.
    Ms. Hahn. OK. So you asked the wrong person who was ready.
    Mr. Hunter. Is that it, Ms. Hahn?
    Ms. Hahn. That's it.
    Mr. Hunter. Mr. Garamendi is recognized.
    Mr. Garamendi. I was going to ask a similar question. For 
the record, I will submit the question to you. It has to do 
with the new rule of how close picketers can get to ships that 
are coming in and out of ports, particularly in the Northwest, 
a very, very important question that we would like to have 
answers for. I see your staff behind you writing down 
questions. I'll just hand you the paper, and I'd expect you to 
get back to us forthwith like this week.
    Admiral Butt. I certainly will do that.
    [The information follows:]

        Response to Part 1

        There is some misunderstanding regarding the Coast 
        Guard's recently reissued grain-shipment safety zones 
        in the Columbia and Willamette Rivers. The Coast 
        Guard's temporary interim rule (IR) published on June 
        4, 2013, did not ``expand'' the area of the vessel 
        safety zones promulgated in January 2013. The safety 
        zone distances for grain-shipment vessels remain 
        unchanged (500 yards ahead of the vessel, and 200 yards 
        abeam and astern). Instead, the June 4, 2013, IR carved 
        out a smaller class of vessels--``grain-shipment assist 
        vessels''--from the definition of the larger group of 
        grain-shipment vessels. Shorter safety zone distances 
        were assigned to these smaller vessels (100 yards 
        ahead, 50 yards abeam and astern). The Coast Guard made 
        this change because the existing 500/200 yard safety 
        zone was disproportionately large for these smaller 
        vessels, and it was not the intent of the Coast Guard 
        to enforce that size safety zone around them. Under the 
        June 2013 IR, protestors may come closer to grain-
        shipment assist vessels than under the rule published 
        in January 2013. Unfortunately, the optics of 
        establishing a new category of vessels in the 
        regulation text, along with new enforcement of the 
        grain-shipment assist vessel safety zones, gave the 
        appearance of ``expanding'' the safety zone 
        applicability when that was not the case.

        Coast Guard on-water observations of navigational risks 
        support the Coast Guard's decision to keep grain-
        shipment assist vessels within the safety zone, to 
        reduce the risk of collision. River and bar pilots have 
        raised safety concerns with navigating near vessels 
        involved in protest activity. The pilots are extremely 
        knowledgeable about the unique hazards of navigating on 
        the river and the maneuvering characteristics of deep-
        draft bulk carriers and assist vessels such as towing 
        vessels and pilot boats. Additionally, there have been 
        two cases where vessel operators failed to heed 
        multiple warnings and violated the safety zone by 
        maneuvering in front of grain-shipment vessels, placing 
        themselves, and potentially the grain-shipment vessels, 
        in danger.

        The IR is intended to ensure that members of the 
        maritime public, those participating in protest 
        activities on the water, law enforcement personnel, and 
        vessel crews are not injured. Recreational boating, 
        fishing, and protest activity afloat in these safety 
        zones is particularly hazardous because of the effects 
        of strong river currents, the maneuvering 
        characteristics of grain-shipment vessels, and the 
        safety sensitive mid-stream personnel transfers 
        conducted by grain-shipment assist vessels with which 
        recreational boaters and protesters may be unfamiliar. 
        Both grain-shipment vessels and grain-shipment assist 
        vessels require sufficient room for maneuverability, to 
        avoid collisions and minimize and mitigate other 
        navigational risks. These vessels cannot stop 
        immediately or make the sharp course adjustments that 
        smaller motor vessels--such as recreational boats--can 
        make.

        Response to Part 2

        The Coast Guard respects the First Amendment rights of 
        protesters. In preparing this temporary rule, the Coast 
        Guard carefully considered the rights of lawful 
        protestors. The safety zones created by this rule do 
        not prohibit members of the public from assembling on 
        shore or expressing their points of view from locations 
        on shore. On the water, protestors may assemble in 
        locations other than the established safety zones. In 
        addition, the Captain of the Port has, in coordination 
        with protestors, identified waters in the vicinity of 
        these safety zones where those desiring to do so can 
        assemble and convey their messages to their intended 
        audience (including incoming grain-shipment vessels and 
        grain-shipment assist vessels) without compromising 
        navigational safety. The temporary interim rule 
        identifies a point of contact for protestors to 
        coordinate protest activities so that their message can 
        be received without jeopardizing the safety or security 
        of people or property in the area. Furthermore, the 
        safety zones are only enforced when grain-shipment and 
        grain-shipment assist vessels are actively maneuvering.

        Response to Part 3

        The safety zone extends to waters 500 yards ahead and 
        200 yards abeam and astern of a grain-shipment vessel. 
        For grain-shipment assist vessels, the safety zone 
        extends to waters 100 yards ahead and 50 yards abeam 
        and astern of the vessel. The public cannot enter into 
        these safety zones without prior Captain of the Port 
        authorization, in accordance with the process set forth 
        in 33 CFR Sec. 165.T13-239.

    Mr. Garamendi. OK. I want to pick up where Mr. Hunter had 
taken this--Chairman Hunter had taken this question, which is 
new technologies that are available--readily available today. 
The U.S. Navy has spent a great deal of time, money developing 
not only the surface programs that Mr. Hunter talked about, but 
also underwater, unpersoned vehicles--we don't want to be 
sexist here, so we'll call them unpersoned vehicles--so that 
they might be available to be used for a variety of purposes.
    Not wanting to plow the same field twice, but I would 
really like to see a further discussion--not necessarily a 
hearing, but a further discussion with the top command at the 
Coast Guard about how it can be flexible enough in its thinking 
about the ways in which you can accomplish your goals. Mr. 
Hunter was talking about surface observation. You said you 
would know whether there is a fishing boat nearby.
    Underwater vehicles can also give you valuable information. 
You may not know whether it is a fishing boat or somebody 
intent upon bringing in contraband, but at least you know where 
it is, and you might be able to target it. So there's a whole 
series of issues that have to do with these new unpersoned 
vehicles, both surface and underwater and air. So further 
discussion should be forthcoming if you could take that into 
submission and get back to us on that, perhaps we'll call a 
hearing or at least an informal discussion about it.
    Secondly, a similar question has to do with the U.S. Navy's 
use of unmanned drones--aerial drones. We'll call them 
unpersoned aerial drones. They are--will very soon be fielding 
a Global Hawk Naval version, which they call BAM, B-A-M. It has 
extraordinary capability to do many of the things that the Navy 
has set out to--excuse me--the Coast Guard has set out to do on 
its own. And the question I would ask without expecting an 
answer today is: What is the Navy and the Coast Guard doing 
together to utilize unmanned, unpersoned vehicles both 
floating, underwater, and aerial to fully comprehend the 
mission awareness situation.
    Admiral Butt. Well, sir, actually when it comes to the 
UASs, that does fall under my portfolio, so I'm able to discuss 
that. We are currently working with the Navy. We have liaison 
officers at Pax River embedded with their programs to go and 
work with them to see how we can utilize it with the Coast 
Guard.
    But post-9/11, because of the advances in the intelligence 
community, for a lot of these assets out there, we already have 
access to the information. We don't have to actually field the 
assets ourselves to get access there. So as we're going 
forward, there may be several ways I can figure out if there's 
a fishing boat at this point in space, and it doesn't 
necessarily have to be any one asset that the Coast Guard 
fields.
    Mr. Garamendi. I would like a further discussion with you 
about the integration of the Coast Guard and the Navy with 
regard to their unpersoned vehicles.
    Admiral Butt. Yes, sir.
    Mr. Garamendi. Aerial and otherwise.
    Admiral Butt. We'd be happy to do that.
    Mr. Garamendi. Thank you.
    Yield back.
    Mr. Hunter. Ms. Hahn is ready again--is recognized.
    Ms. Hahn. Mr. Caldwell, you've done a report on port 
security, and one of the things I--as I said earlier, I'm still 
very concerned about--is the security at our Nation's ports. I 
think our ports are some of the most vulnerable entryways into 
this country, and since 9/11 it seems like most of our 
attention has been focused on airport security and not so much 
port security.
    Could you maybe just touch on where you think we still have 
some gaps in port security and if it's something that Congress 
should address going forward?
    Mr. Caldwell. I testified for this committee last year on 
the 10 years since MTSA came into place. If I could just give 
some high-level comments, I think that part of the challenge 
now is sustainment. So we spend a lot of money to put programs 
out there, but maintaining them and keeping them, that's an 
issue.
    It's an issue with the private sector and port authorities 
as well. As you know, they've got port security grants to put 
security improvements in place, but the moneys generally aren't 
used to maintain those and keep them up. So just maintaining 
Coast Guard security operations is a challenge. They're not 
necessarily based on actual threats as much as deterrence and 
improving maritime domain awareness, for example, escorting 
certain vessels and things like that.
    And right now the Coast Guard's pretty pressed to keep up 
the level of effort it had a couple years ago, particularly 
with small boat escorts. We've seen some positive things. When 
I was just in San Diego, CBP and Coast Guard were doing joint 
patrols just to try to save resources and maintain both of 
their efforts. But it's critical for sustaining the efforts we 
have and keeping some kind of surge capacity.
    So we're operating on a lower level, which we have to do 
with the budgets we have now. But it's important to maintain 
the ability to surge if we have a reason, like we actually get 
actionable intelligence on a threat or we have some kind of 
incident.
    Ms. Hahn. Thank you.
    Did you have a comment on that?
    Admiral Butt. Well, ma'am, one of the things we're doing to 
try to help with the coverage because of the budget pressures 
and the number of patrols is we're working with the university 
programs from DHA S&T and with the University of Southern 
California to utilize game theory as a way of optimizing and 
scheduling our patrols that make it look entirely random and 
shows--makes it harder for somebody to anticipate where the 
patrols will be.
    So even though we're having to slide back operations a bit, 
what we're working on is ideas that will allow scheduling that 
gives the appearance that we're out there a lot more than what 
we are, because it puts the boat in the right place.
    Ms. Hahn. And of course, Brookings Institute released a 
report last week or the week before that highlighted 
cybersecurity as being a big weakness at our ports and another 
area of vulnerability. So I introduced a bill last year that 
passed the House and got stalled in the Senate, and I'm 
reintroducing it this year to ask our Department of Homeland 
Security to take another look at our parts some 11 years after 
9/11, reassess, and see if there might be some gaps in our 
security that Congress could take another look at.
    I know because of resources we're cutting back. I know 
Congress after 9/11, one of the first laws they passed was 100 
percent container screening, which was clear this 
administration under Janet Napolitano pretty much told us it 
wasn't going to happen, it wasn't reasonable, not something 
they were even going to attempt to do, and again, the smarter 
approach, the layered approach, direct-based point of origin 
philosophy.
    But I still think all of these have some vulnerabilities. I 
feel like those could be overcome, and I would like to see us--
I think the technology exists, frankly, to screen containers 
much more than 2 or 3 percent, and I think we could do it 
without slowing commerce, and I think we could do it in a way 
that would make more sense.
    Because one dirty bomb coming in a container in the Port of 
Los Angeles and Long Beach could cripple our national economy, 
could kill--we have 5,000 men and women that work on the docks 
every single day at least, and we have these--some of these 
ports are in residential neighborhoods. I think it's still a 
real concern and threat.
    I know it's something that keeps me awake at night as I 
also live within a stone's throw of the Port of Los Angeles. So 
just want to know that I'm moving forward, continuing to push 
on another assessment, another look at port security and 
whether or not there are gaps that we could be told about in a 
classified situation and we could move to address that.
    Admiral Butt. Aye, ma'am. I'll take that back. And with 
regard to cyber, one of the things that affected our schedule 
in deploying these C4ISR systems is since 2004 the threat has 
become real, and so we've incorporated cyber defense into 
WatchKeeper and the other systems we're putting there.
    So one of the things I think that's going--drive port 
partners into playing more with WatchKeeper is the fact--as the 
recognition of cyber issues becomes more prevalent through the 
agencies, and we've already got a system in place that we've 
got the defenses in place. I think that will help bring he port 
partners to our standards.
    Mr. Caldwell. Ms. Hahn, if I could add something, GAO, 
based on a request we got from the Senate Commerce Committee, 
is looking at cybersecurity issues within a port. We've been in 
touch with Los Angeles and other ports, so we'll be talking to 
them about that.
    I also wanted to make a linkage between the topic of 
today's hearing which is MDA and some of the port security 
issues and some of the capability limitations we've talked 
about. We may get in a situation, whether it's with robotic 
surfboards or satellite or buoys or all kinds of other things 
that help us with our MDA that we're aware of a lot of things. 
But we don't have the capabilities necessary to do anything 
about it.
    Again, I learned a lot from this trip to San Diego. You 
have the Mexican pangas coming up, running the drugs and 
trafficking people. There's an awareness that they're out 
there, but part of the problem is when they've got four 200-
horsepower engines on their boat, even if Coast Guard was 
pretty close to them, can't catch them unless they had air 
assets right there and had authorized use of force. So we could 
get in a situation where we're going to maybe know more with 
advances in MDA than we can actually address or deal with.
    Ms. Hahn. Thank you. But--and I agree, and the panga boats 
are a real concern to me as well. I mean one of them came 
onshore just a couple miles from my house, actually made shore 
with about 19 people who came ashore. So yeah, I'm very 
concerned about that for a number of reasons, so I just think 
it--I still want to know where our gaps are so that at least we 
have that information and we could make decisions in Congress 
about whether or not we want to address gaps in our port 
security.
    Thank you. I yield back.
    Mr. Hunter. I thank my colleague from California, and we're 
almost done here. We have, probably, 5 minutes, Admiral. Our 
next panel is, I think, the CEO from Liquid Robotics.
    We have Liquid Robotics here. If you could leave somebody 
here, that would be great. I mean we don't have to go through 
NOAA to figure out what their stuff does. But if you could 
leave somebody here, maybe they could just listen in. A couple 
of questions. The first, without objection, we want to accept 
the testimony from the International Longshore and Warehouse 
Union without objection, and here is the basic question I have 
here, finishing up.
    Right now, you're in a major acquisition. You are in the 
middle of major acquisitions for all, for the OPCs, the FRCs, 
the National Security Cutters, because you spend hundreds of 
millions of dollars, rightly so, this time, trying to 
recapitalize the fleet. How do you know what your conduct of 
operations are, your ConOps, as you would say.
    Admiral Butt. Right.
    Mr. Hunter. How do you know what those really are if you 
don't know what technology is like unpersoned floating 
vehicles, or whatever you want to call them, that will help you 
determine how many vessels you would need in order to make sure 
places aren't being fished out, to see if there's vessels in 
the water in certain areas.
    Your conduct of operations will be impacted greatly by the 
technology that's out there. So if you don't have the 
technology in place yet, and you're going to begin, let's just 
say within the next decade, how do you even know how many ships 
you need? Because you don't know how you're going to operate or 
what you'll need to do it, if you don't really know what 
technologies are going to impact that.
    So you're kind of working blind on the one side, on the 
recapitalization, and we're doing the technology stuff too, but 
those things should interact with each other and have major 
impacts on how many ships you have to buy and on what kind of 
technologies that you use.
    Admiral Butt. Well, sir, that assumption would be good if 
we didn't have so few vessels to actually do it. If you think 
of the interdiction as a three-legged stool, you need cuing, 
and that's what we are talking about the technologies for. You 
need Maritime Patrol Aircraft actually go in and figure out if 
that's a bad boat or not, and then you need the end game to 
actually do the interdiction and in effect the purpose. Right 
now, the strongest leg of the stool the Coast Guard has is in 
my MDA side.
    Mr. Hunter. Say that again, Admiral. I am sorry.
    Admiral Butt. The three stools are MDA, which is the cuing, 
so I know where to send an aircraft or an UAS out to take a 
look to see and identify what the target is. And then once I 
know the target is something I'm interested in, I need end 
game, either a cutter or a boat, depending on where it is at. 
If it is a cutter, usually, with an armed helo to be able to 
slow it down. So I need those three pieces to actually affect 
the interdiction.
    So, right now, the problem the Coast Guard is having is I 
have more MDA than I have aircraft to send out to identify it 
and figure out if it's bad. And I have more aircraft hours than 
I have ships available to actually go out and effect the 
interdiction. So the longest leg of the stool right now is MDA, 
and I have the MDA, not only from our sensors, but through DOD.
    The first priority is we need more ships to be able to 
effect the interdiction. Then the next driver will be we are 
going to need more aircraft or UASs to help with the cuing, and 
then we are looking at being able to go to a wider area to 
actually get it.
    Mr. Hunter. So I understand you are in such dire straits, 
you just need ships. It wouldn't matter whether you had censors 
or not at this point, because you're not at the level to be 
able to pull ships back----
    Admiral Butt. Correct.
    Mr. Hunter [continuing]. If you didn't need them anymore.
    Admiral Butt. Yes, sir. So that's where we're putting our 
priority with our budget.
    Mr. Hunter. Thank you both for your time, and I have got 
one last question that is totally off the subject, but because 
you are the capabilities guru, we are going to ask you anyway. 
Does the Coast Guard still intend to select three OPC 
candidates for full-blown design, or will budget constraints 
result in a withdrawal of the current documented requirements 
and rescoping of the OPC requirements? Did you get that, or do 
you want me to ask it again? Did you understand the question?
    Admiral Butt. You're asking if we are going forward with 
the program of record or making adjustments. Right now, the 
plan is to go forward with the acquisition plan for the OPC.
    Mr. Hunter. And you have to get three finalists to the OPC. 
Right?
    Admiral Butt. That's the current acquisition plan, sir, 
yes.
    Mr. Hunter. And when is that going to happen?
    Admiral Butt. You've got eight in right now, and then 
select three.
    Mr. Hunter. Right. You have to pick three. When are you 
going to select three?
    Admiral Butt. I'll get back to you with that one, sir.
    Mr. Hunter. Roughly. Give me like this year, next year, 
next month, this month, next week?
    Admiral Butt. I actually have lost track of it.
    Mr. Hunter. OK. Anybody behind you know that?
    Admiral Butt. It's scheduled for the end of the fiscal 
year, so.
    Mr. Hunter. The end of the fiscal year. OK.
    Admiral Butt. Was to make the announcement by the end of 
the fiscal year.
    Mr. Hunter. OK. Great. And thank you both for your time, 
and hopefully we can just stay on this and do it right the 
first time, and be different from everybody else that's doing 
the same thing. Thank you both. Appreciate it.
    Admiral Butt. Thank you.
    Mr. Hunter. OK. We have a second panel coming up, so please 
take your time. We are going to have a lot more people arrive 
here, I am sure. I just feel bad when there is nobody here.
    [Pause.]
    Mr. Hunter. All right. Good morning, gentlemen and lady. 
Our second panel of witnesses includes Mr. Bill Vass, CEO of 
Liquid Robotics, which we talked about quite a bit here; Mr. 
Steve Morrow, president and CEO, Insitu, appearing today on 
behalf of the Association for Unmanned Vehicle Systems 
International; Ms. Lisa Hazard, our operations manager of the 
Coastal Observing Research and Development Center at Scripps 
Institute of Oceanography; and Dr. Newell Garfield, director of 
the Romberg Tiburon Center at San Francisco State University.
    I would like to welcome you all. You all heard the first 
exchange. I understand, Mr. Vass, you have to leave by 1300, 
1:00. Right? So please open your statements. Keep them as short 
as possible, and we can get around to answering questions. 
Thank you for being here. Mr. Vass, you are recognized.

  TESTIMONY OF BILL VASS, CEO, LIQUID ROBOTICS; STEVE MORROW, 
  PRESIDENT AND CEO, INSITU, ON BEHALF OF THE ASSOCIATION FOR 
UNMANNED VEHICLE SYSTEMS INTERNATIONAL; LISA HAZARD, OPERATIONS 
  MANAGER, COASTAL OBSERVING RESEARCH AND DEVELOPMENT CENTER, 
SCRIPPS INSTITUTION OF OCEANOGRAPHY, UNIVERSITY OF CALIFORNIA, 
 SAN DIEGO; AND NEWELL GARFIELD, III, PH.D., DIRECTOR, ROMBERG 
 TIBURON CENTER FOR ENVIRONMENTAL STUDIES, SAN FRANCISCO STATE 
                           UNIVERSITY

    Mr. Vass. Again, thank you very much, Chairman Hunter, and 
the rest of the distinguished members of the subcommittee for 
offering to----
    Mr. Hunter. If you don't mind, please pull the mics. I did 
three tours with artillery. I can't hear anything, seriously. 
Right next to your mouth would be good. Thanks.
    Mr. Vass. Liquid Robotics is a venture-backed, Silicon 
Valley and Hawaii based company. Since 2007 we have been 
providing our customers around the globe with a revolutionary 
new way to observe, monitor and patrol the oceans and 
coastlines. We are doing this through the utilization of a 
platform called, ``The Wave Glider.'' It is an unmanned, or I 
guess now we are saying ``unpersoned'' ocean vehicle, capable 
of precise navigation that can stay at sea for a year at a time 
without the need of fuel, without polluting, without putting 
human lives at risk.
    By the end of my testimony, I will convey how this 
innovative wave and solar-powered platform can help the Coast 
Guard, exponentially, increase its patrol area coverage, 
increase operational effectiveness at a fraction of the cost 
and environmental impact of ships. In 2009 before this 
subcommittee, Coast Guard Admiral Salerno said, ``Awareness is 
essential to everything the Coast Guard does.'' Matching people 
to their spills, tracking ships, all of those kinds of things 
are extremely difficult to achieve, unless you have a strong 
domain awareness in the ocean. To do this, you need to be at 
sea 24/7, 365, through the harshest weather, gathering and 
processing data, monitoring marine conditions and traffic, and 
communicating this information to key stakeholders.
    Historically, maintaining a long duration present at sea 
has been cost prohibitive. Sending ships out for long duration 
missions of 6 to 12 months can cost millions of dollars, put 
human lives at risk and pollute the environment significantly. 
Aerial assets have the same time, weather and cost limitations. 
With the advent of the wave-glider, the world's first, unmanned 
ocean vehicle powered solely by the Earth's national resources, 
we have broken through the barrier of long duration operations 
by solving the energy problem of having it generate its own 
energy while its at sea.
    The Wave Glider has stayed at sea for years at a time. 
Collectively, our fleet has traveled over 350,000 nautical 
miles, navigating the world's oceans on missions for commercial 
and Government customers. We have collected scientific data 
from the Gulf of Mexico to the Arctic, to Australia and all the 
world's oceans. We navigated across the Pacific from California 
to Australia, giving us the Guinness World Record for the 
longest distance ever traveled by an autonomous vehicle on the 
surface of the planet, and the first to cross the Pacific 
Ocean. With this long duration, all weather technology, we can 
help the Coast Guard greatly enhance its maritime domain 
awareness and information network, increasing the efficiencies 
of high-value assets for the Coast Guard's missions, such as 
search and rescue, port, waterways, coastal security, drug 
interdiction, border security and EEZ enforcement.
    As noted, the beauty of the Wave Glider is that it can 
safely and economically travel into high-risk locations through 
all weather conditions and capture data that's not before 
really feasible. Oh. And I am going to give you some examples. 
We are working with NOAA's Atlantic Oceanographic & 
Meteorological Laboratory to measure the ocean surface 
temperatures during active hurricanes for better hurricane 
intensity prediction; literally, having a better understanding 
of how strong the storm is when it lands--not just where it is 
going.
    As we have seen, preparedness for a tropical storm versus a 
category 4 hurricane is dramatically different and it 
significantly affects people's lives and the economies. And 
many of you on the subcommittee are from coastal towns, like 
myself, and you can't measure the tangible and intangible costs 
of preparing for a hurricane properly. Until the Wave Glider, 
there has not been a viable, safe way to send a mobile surface 
vehicle directly into a hurricane to collect real-time data.
    Aerial drones can often get blown off-target in these kinds 
of situations. Stationary and moored sensors, by definition, 
are not mobile and can't move around in a hurricane, and 
frequently break in those conditions. Satellites that are 
circling 250 miles above the Earth's surface are challenged to 
collect data during those kinds of storm events because of the 
cloud cover. Imagine implementing the Coast Guard Asset that 
can survive a category 4 hurricane, one that can navigate to 
new locations to investigate and patrol, all while continuously 
communicating and computing lifesaving information.
    We can and we have. To date, we have navigated and 
communicated through five hurricanes and three cyclones, 
including Sandy and Isaac, where we continue to operate in our 
oil and gas missions during the storms. Imagine what the Coast 
Guard could do with that type of capability. Our customers are 
anyone who operate in the ocean or move across it. They vary 
from Governments to large oil companies to scientific 
organizations and communications companies.
    You may wonder what kind of data we actually collect on 
these things, and the answer is you can pretty much load any 
sensor out there. It is a pretty broad range of things. Think 
of the Wave Glider as a utility truck. You can load up a bunch 
of sensors on it as well communications and computing 
equipment. It's really very much like a floating computer 
center out there. So it can collect and process the data. You 
can load it up, send it on a mission for 6 to 12 months, 
covering tens of thousands of miles and collect your data, 
operate patrol. You can collect everything from water quality 
measurement, that, as you mentioned, you can collect the 
quality of the water down to two parts per trillion of 
hydrocarbon, or you can load it up with acoustics, radar, video 
and things like that to be used for patrolling.
    I think this kind of long duration platform could have a 
significant impact on the Coast Guard's operations. So, in 
conclusion, around the globe, defense departments, coastal 
defense forces, oil and gas companies are faced with this 
daunting challenge to continuously protect and secure vast 
coverage areas with limited resources and shrinking budgets. 
The ability to have a real-time marine information can make the 
difference between life and death, the difference between 
apprehending the smuggler or not, the difference between 
avoiding an environmental disaster or not.
    The overwhelming barrier has been providing affordable, 
persistent, long duration, multisensing data that can be 
monitored, detected, and is very mobile, and track and manage 
marine targets and provide marine conditions. As Admiral 
Salerno said so eloquently, ``Awareness is essential to 
everything the Coast Guard does.'' To have this level of 
maritime awareness requires a mobile, unmanned resources, at 
the surface of the ocean, collecting data from subsea sensors 
and undersea vehicles, collecting surface data and sharing that 
information among trusted organizations in real time.
    Liquid robotics is in a unique position to provide 
increased marine domain awareness today at a fraction of the 
cost of the alternatives. We would be honored to help the Coast 
Guard increase its maritime advantage. I would like to thank 
you for the opportunity to talk to you today and open it up for 
questions.
    Mr. Hunter. Thank you, Mr. Vass.
    Mr. Morrow, you are recognized for 5 minutes; and, if you 
could, keep your testimony at 5, so we can get into the meat of 
this when you are finished.
    Mr. Morrow. I certainly will.
    Mr. Hunter. Thank you.
    Mr. Morrow. Thank you, Chairman Hunter, Ranking Member 
Garamendi and members of the subcommittee for inviting me to 
testify. My name is Steve Morrow and I am the president and 
chief executive officer of Insitu, a subsidiary of Boeing. Our 
company designs, develops and manufactures high-performance, 
low-cost, unmanned aircraft systems or UAS.
    I am speaking to you today on behalf of the Association of 
Unmanned Vehicle Systems International, AUVSI, the world's 
largest and oldest nonprofit trade association, representing 
the unmanned systems industry. The use of unmanned aircraft 
systems has grown substantially in recent history, due largely 
to advances in computing technology, but experts all say the 
industry is still in its infancy.
    UASs hold an enormous potential to increase the reach and 
efficiency of current systems while reducing the risk of 
operations. I am here, primarily, to address the benefits of 
UAS in the maritime domain. UASs have the ability to access and 
survey vast expanses of our oceans and rivers to supplement the 
capabilities of unmanned vehicles and other platforms. Their 
critical, situational awareness that UAS provide could support 
search and rescue operations, anti drug or anti smuggling 
operations, environmental protection, antipiracy operations and 
many other missions. In these missions, UASs are capable of 
saving time, saving money, and most importantly saving lives.
    One example was described by Vice Admiral Currier in a 
hearing before this subcommittee on June 26th, which he 
described an evaluation of a small UAS aboard the National 
Security Cutter Bertholf. That UAS, which was launched and 
recovered on the cutter flew 90 hours at sea providing 
substantial awareness beyond the reach of existing systems 
available to the cutter. In one mission, the UAS provided real-
time monitoring and location information of a suspicious 
vehicle targeting and monitoring the vehicle until other Coast 
Guard assets arrived to interdict and apprehend the vessel's 
crew.
    Seamless transfer between the UAS and manned aircraft 
vessels through regular communications resulted in a successful 
interdiction of over 1200 pounds of cocaine, the first such UAS 
effort by the Coast Guard. And an even more high-profile 
example several years prior, the same UAS provided persistence 
observation for military units during the rescue operation of 
Richard Phillips, captain of the Maersk Alabama, from Somali 
pirates in 2009.
    In addition to U.S. Government application, commercial 
application of the UAS can benefit environmental monitoring and 
scientific analysis in regions not accessible by manned 
aircraft, or information gathering for commercial enterprises 
along coastal regions. As a Federal Aviation Administration 
finalizes its regulations of UAS in the national airspace, we 
believe that there will be further opportunities for U.S. 
Government agencies, in particular the Coast Guard, to work 
with commercial UASs in furtherance of its missions. The 
information gathered by UAS could be both cost-effective and 
timely, allowing all maritime operators the ability to do their 
jobs more economically, effectively and efficiently. There 
should be no doubt that the future of maritime domain awareness 
should include unmanned aircraft.
    Mr. Chairman, the UAS industry holds the potential of being 
an engine of economic growth for our Nation as well. A study by 
AUVSI finds that the unmanned aircraft industry is poised to 
create more than 70,000 jobs in the first three years following 
integration of UAS into national airspace. By 2025 that number 
is estimated to rise to 103,00 new jobs with an economic impact 
of more than $82 billion over that period.
    I thank you again for the opportunity to testify today and 
look forward to answering your questions.
    Mr. Hunter. Thank you, Mr. Morrow.
    Ms. Hazard, you are recognized for 5 minutes.
    Ms. Hazard. Chairman Hunter, Ranking Member Garamendi and 
members of the subcommittee. Thank you for the opportunity to 
appear before you today.
    I would like to start by taking the opportunity to thank 
Congress and Federal agencies for investing in ocean 
observations and encouraging a broad distribution of those 
data. I was recently made aware that the U.S. Coast Guard is 
able to reply on publicly available weather and ocean 
information from the Navy, NOAA, and research academic 
institutions; whereas, in other countries, a large portion of 
the Coast Guard budget goes to payment of environmental data. 
Public distribution of data would not be possible without the 
support of Congress. So thank you.
    Prior to this hearing, I had the opportunity to review the 
Government Accountability Office or GAO report on ``Coast Guard 
Guidance for the Common Operational Picture,'' or COP. I have 
based my recommendations on what I believe to be concerns 
addressed within the report. My experiences in working with 
operational applications for the U.S. Marine Corps and for 
search and rescue and oil spill response, as well as data 
management for the integrated ocean observing system, or IOOS, 
have shaped many of my views.
    Many of my recommendations I discuss are based on my 
experience and do not necessarily reflect the position of 
Scripps. After reviewing the GAO report, it seems to me there 
was significant investment of time, funds and process 
documentation, as was required for a full-scale analysis of 
developing technologies for the Coast Guard. Conducting smaller 
scale demonstrations of developing technologies in partnership 
with agencies, such as Naval research, to test conceptive 
operations of new technologies could help significantly in 
determining worthy ventures.
    Depending on the success of the demonstration, results 
could provide input to help the Coast Guard define analysis of 
risk, operational costs, manning requirements and transition to 
the fleet. Successful demonstrations can be scaled to support 
operations, while unsuccessful demonstrations provide valuable 
lessons learned and saved significantly on what would have been 
a full scale guidance procedure.
    Additionally, I'd like to touch upon the concept of 
building operations for watch standards who need to make 
operational decisions based on the information that they have 
at hand. The GAO report references a system of systems, which 
in my definition includes not only a back end of data feeds, 
but also a front-end user interface. It seems as though there's 
been some frustration in designing a system that suits all 
needs, and such a system can be overly complex to the watch 
stander and not supported on existing hardware.
    One approach that could prove useful in alleviating these 
challenges would be to build a modular applications. These 
applications can reuse the back end infrastructure, or building 
blocks, if you will, but would have different interactive front 
ends or user interfaces. An excellent Coast Guard example of a 
mission driven development is the search and rescue optimal 
planning system or SAROPS. The design team for SAROPS included 
subject matter experts, programmers and users to ensure the 
application built was useful, accurate and functional.
    Separate but compatible tools could be designed for 
tracking submerged oil leaks, monitoring fishing areas or 
maintaining vessel awareness. In my own experience with IOOS, 
we worked closely with pilots, harbor patrol and emergency 
managers on an interactive Web display with overlays of 
navigational charts, shipping channels, waves, winds and 
surface currents for the Port of L.A.--Long Beach, actually.
    The users did not want us to use pop-ups for measurements 
as they blocked the underlying models. We did end up putting 
data in the text box in the upper left-hand panel of the page, 
ensuring they could see the whole picture. We would never have 
known that pop-ups would prove to be distracting if we weren't 
working with both COP developers and COP users in a build-test-
build development cycle. We've been able to create modular 
problem and user driven applications while reusing our common 
data feeds in infrastructure. This allows us to be flexible 
without redesigning the whole system.
    From my final comments, I'll touch base on HF radar, one 
emerging technology that is applicable to Coast Guard missions 
and maritime domain awareness. High-frequency radar systems are 
installed on land and can measure ocean circulations through 
receipt of radio signals. A national HF radar network or 
HFRNet, supported through NOAA with close to 130 systems, has 
been established to measure surface currents in near real-time 
and is currently used in multiple operational applications and 
distributed for Web services.
    I previously mentioned the Coast Guard SAROPS tool. One of 
its primary data feeds is a short-term prediction system to 
show where a drifting person or vessel would be. The prediction 
model receives numerous environmental inputs with the recent 
addition of near real-time, HF radar surface currents. HF radar 
is also being developed for ship tracking and will extend over-
the-horizon view of vessels, which is directly applicable to 
MDA.
    Again, I'd like to thank you for this opportunity and happy 
to answer any questions.
    Mr. Hunter. Thank you very much. Do you actually work at 
the Scripps down by La Jolla Shores?
    Ms. Hazard. Yes, I do.
    Mr. Hunter. That's great. That's a great place to work. I 
grew up surfing there at the pier in back.
    Ms. Hazard. Pretty nice.
    Mr. Hunter. Well, thank you, Ms. Hazard.
    Dr. Garfield, you are recognized for 5 minutes.
    Dr. Garfield. Thank you, Chairman, and Ranking Member 
Garamendi for this opportunity to testify.
    I am an observational physical oceanographer from San 
Francisco State University and a founding member of the Central 
and Northern California Ocean Observing System or CeNCOOS, one 
of the 11 regional observing systems within the U.S. integrated 
ocean observing system.
    My testimony actually corroborates very much with Ms. 
Hazard's. The ocean is critical for both the prosperity and 
safety of our citizens. Knowledge of the ocean environment is 
essential to this country. My testimony today is that thanks to 
the innovative approach that IOOS is taking, real-time 
environmental data are now readily accessible to the Coast 
Guard, and the Coast Guard is successfully utilizing these 
data.
    In 2009 the U.S. IOOS was created by Congress as a Federal, 
regional partnership, charged with providing real-time and 
sustained observations on our coast, oceans and Great Lakes. 
NOAA is the IOOS lead of the 17 Federal agencies including the 
U.S. Coast Guard that are working together with local interest 
to provide seamless access to coastal data. Today, over 50 
percent of the data provided to the global telecommunications 
system by NOAA's national data buoy center comes to NOAA from 
non-Federal sources, most of which are supported by the 
regional associations. In the past, numerical models was one of 
the primary ways to estimate circulation. Now with HF radar we 
actually have measurements and that greatly improves the 
ability to respond and determine trajectories.
    My written testimony has three examples that I'll quickly 
summarize to illustrate how access to IOOS real-time 
observation data has improved the Coast Guard's marine domain 
awareness. In 2002, California voters invested $21 million to 
install an array of 43 shore-based instruments, the HF radars 
that measure the ocean's surface currents in real time from the 
shore out of distance 130 kilometers, with a spatial resolution 
of 6 kilometers and updated hourly.
    The 2005 interagency ``Safe Seas'' spill response exercise 
off San Francisco demonstrated the huge benefit of having 
access to real-time surface currents, causing one Coast Guard 
officer to explain ``I love HF radar,'' and I believe she did 
that right in front of Admiral Lautenbacher. The same array was 
accessed during the subsequent 2007 Cosco Busan fuel spill, and 
this led NOAA to include HF radar data in the NOAA spill 
trajectory model used to provide environmental conditions to 
the Coast Guard.
    The 2010 Deepwater Horizon incident was the first time that 
Federal responders had routine access to non-Federal 
information, which was enabled by the protocols developed by 
the IOOS data management system. In all three incidents, access 
to real-time currents improved response operations. And I think 
Rear Admiral Butt just said that's continuing to improve in the 
Gulf area.
    Secondly, it has been shown that when HF radar data are 
available, the knowledge of currents can reduce the time of 
search and rescue patterns by up to two-thirds from model data 
alone, because the search area can be significantly 
constrained.
    And the third example is the IOOS collaboration with the 
U.S. Army Corps of Engineers Coastal Data Information Program, 
CDIP, to deploy buoys that accurately measure both waves and 
swell at critical locations. In the San Francisco area, the 
National Weather Service, the Coast Guard and the commercial 
tugboat operators requested that one of these buoys be placed 
on the San Francisco bar entrance. The number of Coast Guard 
responses in that area dropped from nearly 80 in 2005 before 
the buoy was deployed to less than 20 in 2009. A similar buoy 
at the Columbia River bar is monitored 24/7 by the Coast Guard 
to determine when conditions are too rough for safe passage 
through the bar.
    It is important to emphasize that the data are obtained 
from many different sources instead of being restricted to a 
particular vendor or agency. It is also important to understand 
that these data are all available in open formats. No 
proprietary formats are involved. This will allow the SAROPS 
environmental data server to host over 50 different 
environmental products, and the IOOS structure allows many 
different users access to the data.
    In conclusion, I would like to reiterate that the 
development of the IOOS system gives the Coast Guard 
unprecedented access to real-time environmental data. The Coast 
Guard, particularly SAROPS group and the unified area command 
group are commended for ensuring that agency has access to the 
environmental data essential for good maritime domain 
awareness.
    The distributed observing infrastructure being developed by 
IOOS is as critical to the Coast Guard's functions as are its 
boats, aircrafts, piers and other infrastructure. This asset is 
needed by the Coast Guard and it needs Coast Guard support. I 
recommend that the Coast Guard commit to supporting IOOS and 
strive to utilize all nonclassified, environmental data 
available through the IOOS servers and ensure that the 
different divisions within the Coast Guard utilized common 
protocols to access the data.
    I also urge the divisions of the Coast Guard to become 
members of their respective regional associations. Membership 
strengthens the collaboration between the organizations and 
provides a more effective mechanism to create operational 
applications in support of the Coast Guard mission. In fact, 
last year, CeNCOOS had their annual meeting at Liquid Robotics, 
and so right there we had that integration of different 
resources. Thank you very much.
    Mr. Hunter. Thank you, Dr. Garfield. Thank you panel for 
being here.
    I have got a quick question, really quick about the HF. Is 
that like synthetic aperture radar, or is it totally different?
    Dr. Garfield. Totally different.
    Mr. Hunter. Totally different. How far does it go off 
shore?
    Dr. Garfield. It depends on the frequency. The lowest 
frequency we use has a range of 130 kilometers offshore.
    Mr. Hunter. And how big is it? It's an antenna, I would 
guess.
    Dr. Garfield. It's just an antenna, that's a vertical 
antenna, and basically invisible.
    Mr. Hunter. Is it big?
    Dr. Garfield. No, it's a whip antenna.
    Mr. Hunter. So you could put it on a surfboard and float 
it?
    Dr. Garfield. You could.
    Mr. Hunter. Can it move? Like can you move it, or does it 
have to stay still?
    Dr. Garfield. You could. In fact, the Navy has done tests 
about putting HF radar on ships. The problem is that the 
technology relies on the Doppler shift that's being reflected 
off ocean waves. So if you're also on a moving vehicle, it's a 
lot more difficult.
    Mr. Hunter. You have to account for your movement as well 
as the ocean.
    Dr. Garfield. Correct.
    Mr. Hunter. And the reason you use HF, that's what we use 
when we're talking to airplanes. Because as long as there is 
nothing blocking your line of sight, it can go forever for the 
most part. I mean we use HF to talk to planes. We use VH to 
talk to ground.
    Dr. Garfield. Yeah. HF is down near FM radio frequencies, 
and there was a gap there where we could do some scientific 
work.
    Mr. Hunter. Gotcha. Dr. Hazard--Ms. Hazard--so what you 
would do is if a ship wasn't pinging, you could, basically, 
like we do with space, see where the holes are. So you could 
see what's out there, and you know if the ship is pinging. And 
if there's nothing pinging, but you see it on the radar, that's 
when you know that you have somebody who's not pinging from 
their ship, right, from the AIS or whatever system they are 
using.
    Ms. Hazard. But, sir, it's not actually using the AIS feed, 
but the radar----
    Mr. Hunter. What I'm saying is the Coast Guard, using the 
AIS and using the HF at the same time can see that there's no 
pinging from the AIS from a ship that exists that they see from 
your HF radar. Right?
    Ms. Hazard. That's correct.
    Dr. Garfield. One clarification: It's not really radar. It 
is radio waves, and so the technology is not like a ship's X 
band radar at all. If you're familiar with radars, most people 
tune their radar not to see the ocean waves. What we're trying 
to do is capture the scatter off the ocean waves, and that's 
how you determine what the currents are. But a ship will give a 
solid signal. It will give a very strong return signal, but you 
won't know its location immediately.
    Mr. Hunter. Let me ask you this, too. What's the order of 
magnitude of difficulty? And this is for everybody, actually. 
What's the order of magnitude of more difficulty? Is it to do 
this stuff on the water as opposed to land? Like we were 
talking about unmanned systems. I would guess the Coast Guard 
would just hopefully piggy-back with the Navy. It's way ahead 
on this stuff. And, once the Navy gets it down, because it's 
harder that they would just take what the Navy has, right.
    And on the other side of it, you can't communicate under 
water with underwater systems. It's really hard, because to 
make waves travel through water, almost every single underwater 
platform is tethered to something so you can tell it what to 
do, or at least tell it and then let it go again, and then tell 
it later, once it surfaces, if you can communicate again. 
Right? So my question is this. How much harder is it. Why is it 
so much harder?
    I think I just went through a few of those, and if you were 
to have your way and create a CON OPS for the Coast Guard, say 
here's how you use our stuff, I mean we're talking about the 
Coast Guard right now, and that previous panel said that they 
don't even know. They wouldn't know how to use it because it's 
not in their dictionary yet. It's called floating debris.
    That's your Government answer, right, because they 
literally call it floating debris; therefore, we don't even 
want to look at what it does or how to use it until we can see 
it written on paper with a colon and a description of it. 
Right? So they are probably 20 years back. My question is if 
you were to tell us how to employ what you are doing and bring 
it all together to make it more effective and efficient, and 
save money for the Coast Guard, kind of what would that be. 
What do you envision? Mr. Vass, please?
    Mr. Vass. Well, I would envision an integrated system.
    Mr. Hunter. Turn your microphone on, if you could. Is it 
on?
    Mr. Vass. I believe it's on. The green light's on, anyway.
    Mr. Hunter. OK. That's great.
    Mr. Vass. All right. I would envision an integrated system. 
We communicate to undersea vehicles all the time now with our 
Wave Glider, and then transmit that to satellite or to radar. 
We do that acoustically. Sound travels 10 times faster under 
water than it does through land, so we can communicate things 
down 6 kilometers down under the ocean pretty effectively, 
along with giving it positional information.
    So what you really want is something like what we did in 
the harmony demo with Lockheed Martin where you have undersea 
vehicles communicating to these long duration surface vehicles, 
communicating to aerial vehicles, communicating to space 
assets. So you basically have ISR from the ocean floor to space 
in these environments, all autonomous sort of end to end. So 
the advantage of the Wave Gliders, we can stay out all year, 
and not many things can do that. We can navigate very 
accurately.
    We are unpredictable as far as patrolling goes, because you 
can move us around and navigate, and control that both 
autonomously or semi autonomously from sure. And then we can 
receive signals from undersea assets, tip and cue aerial assets 
or aerial assets can tip and cue us, or the same thing with 
spatial assets. So you sort of get this continuous ISR at a 
much lower cost and much longer duration.
    So, for example, aerial drones are going to stay up a 
series of hours, perhaps a series of days. We are out there all 
year. We can direct them. When we detect something, they can 
confirm an asset before an interdiction goes out. I mean it's 
very expensive to do an interdiction, so you'd save those high-
value assets for interdiction; use the lower cost assets--like 
aerial drones and undersea drones and surface drones--for your 
monitoring a long duration monitoring.
    I thought Mr. Morrow gave a great example of we could show 
where something was. Aerial drone comes over. It tracks it 
continuously, and then air assets and sea assets can interdict.
    Mr. Hunter. Like the admiral said, Admiral Butt said, that 
you have to cue. Cuing is a main part of maritime domain 
awareness, right?
    Mr. Vass. Right.
    Mr. Hunter. So cuing, you can get people there quickly.
    Mr. Vass. Right.
    Mr. Hunter. It's a big part of knowing what's going on.
    Mr. Vass. Right. And part of our design criteria for the 
Wave Glider; it's actually a high-performance computing center. 
We have many cores of onboard processing. I know you have an IT 
background, so you understand some of that. It is a 24-socket, 
multicore processing system on board running Linux and Java, so 
we can run a lot of the cuing and tipping algorithms on board, 
along with sensor fusion and data reduction in situ when we 
collect the data. And that allows us to be this sort of long 
duration platform, so we can collect huge amounts of data. You 
don't really want to send home--you know--365 days of waves in 
the ocean. You want to process the data onboard, and send home 
when you see a ship, or when you see a whale or you see things 
that are interesting, and we have the ability to do that with 
our platform.
    Mr. Hunter. Thank you, Mr. Vass.
    Mr. Morrow. To speak more generally to the admiral's 
dilemma of writing requirements for this new technology, our 
lessons learned from Afghanistan and Iraq was that until the 
war fighter actually got his hands on the system, he didn't 
really know how to use it. He had a notional idea how he would 
use it, but that radically changed. When we first got to 
Fallujah, again, they had a general idea. A couple months of 
using the system, they found it used in a totally different 
way, and that's what's involved----
    Mr. Hunter. You know. I was one of the first forward 
observers to shoot artillery off of an unmanned system with a 
corporal with a laptop on his back in Fallujah in 2004. Yeah. 
That hadn't been done a whole lot yet at that point.
    Mr. Morrow. Correct.
    Mr. Vass. Did you hit the targets?
    Mr. Hunter. We did hit the targets, a lot of them. Yeah.
    [Laughter.]
    Mr. Vass. Just checking.
    Mr. Hunter. It was fulfilling.
    Mr. Morrow. So until the Coast Guard actually gets the 
systems deployed, I think they won't have a full appreciation 
of what they can do with them.
    Mr. Hunter. Well, that's not good that they won't know how 
to integrate them into their operations until they have them in 
their hands?
    Mr. Morrow. Right. From an acquisition standpoint, it is a 
dilemma. It's an issue.
    Mr. Vass. Yeah. And I think the platforms don't evolve 
properly until they have them in operation, as well. So until 
you've been using them and you get feedback from the end user 
who's relying on it every day and what needs to be changed, 
what the performance characteristics are, what kind of data is 
most useful, all of that requires piloting and demonstrations, 
and test processes, which of course we're doing right now with 
the Navy.
    Mr. Morrow. Right. Our technology refresh rate is occurring 
well inside the do-loop of the acquisition procurement cycle.
    Mr. Hunter. Ms. Hazard?
    Ms. Hazard. I'll just make two points in addition to what's 
been said. The HF radar technology is nice, because it is land-
based and fixed. And so not out in the water where systems can 
require significantly more maintenance. So the maintenance of 
the system is easier. The Coast Guard needs all those 
applications together. And, also, just in regards to the Coast 
Guard, where there is a lot of the turnover. Someone becomes 
familiar with the technology, and then you get an expert user. 
And then they're gone a year later. Scripps staff retain the 
technology expertise and can train users.
    For example, we have been working with special warfare, 
showing them how to use the unpersoned autonomous vehicles and 
then maintaining that technical expertise and continuing to 
work with them as that turnover continues. So we maintain the 
knowledge base and can get folks up to speed very rapidly so 
that they are ready to go at the start of their service.
    Mr. Hunter. And I would guess too if you're doing port 
security you don't need more than 130 kilometers offshore. 
That's well within what you would need. How many miles is that?
    Dr. Garfield. It's a little over 100 miles. It's about 100 
miles, nautical miles.
    Mr. Hunter. Nautical miles. And so that's well outside of a 
nuclear yield or something like that, and dipping in the wind 
and stuff like that.
    Mr. Vass. I think one thing that's important to point out, 
in the commercial world where we operate, we generally operate 
these as a service, and in some cases for the Department of 
Defense we do as well. And I think that's one way to stay in 
situ, if you like the do-loop of procurement, is just say we 
want this much information and we want this level of 
availability and make it our problem in commercial industry, 
solve that problem. I know Insitu does the same thing. They 
operate it as a service.
    Mr. Hunter. You don't think that the Coast Guard should try 
to make this on their own?
    Mr. Vass. No. I believe even operating it it would make 
sense they would put mission requirements in place and say 
``Here is the data we need.'' Here is the availability we 
need--those kinds of things--and then let commercial enterprise 
do the day-to-day operations and operate it as a service for 
them.
    Mr. Hunter. Dr. Garfield?
    Dr. Garfield. Yeah. Chairman Hunter, I would just add one 
thing. I think the three other speakers covered it very well, 
but as I mentioned in my closing remarks, the IOOS regional 
associations are really a valuable asset for the Coast Guard to 
take advantage of; and, if the different divisions were in the 
Coast Guard, actually partnered and joined in on these meetings 
and participated, they would know exactly what Liquid Robotics 
could do. They would know exactly what the assets are in their 
area.
    The other is I have been able to go into the Coast Guard 
Search and Rescue there on Yerba Buena Island. I have a much 
better idea of what their needs and what their capabilities 
are, which has helped us sort of tune some of the data, some of 
the information, to make it more beneficial to their needs. So 
that give and take, outside of some purchasing requirement, 
would really help define their mission and show them what is 
available to be successful in their mission.
    Mr. Vass. Right. I think it's interesting to point out we 
work very closely with the Coast Guard as a user of Coast Guard 
services, because we file a Notice to Mariners in all our 
operations. The Coast Guard has given us input on how we should 
flag the vehicle; what kind of AIS we should transmit; what 
kind of marine radio we should use, and what kind of lighting 
we should use what are the COP regs, all those kinds of things. 
They've been tremendously helpful and very active as a service 
provider to us. And I just want to make sure that's noticed.
    So the folks on the ground are very familiar with the Wave 
Glider, because we are operating in all their areas all the 
time, and they are always taking this into account. They're 
just not a user of our service. So it's interesting from that 
aspect for us, but they've been tremendously supportive. And I 
think that's important to point out. They really do tremendous 
work for us in ensuring how we operate and where we operate, 
and that we do it with maximum safety and maximum capability as 
well.
    Mr. Hunter. Thank you. Mr. Garamendi, you're recognized for 
as long as you like.
    Mr. Garamendi. Mr. Chairman, thank you very much for this 
very, very important hearing. Mr. Garfield, it's good to be 
working with you once again. I notice when I was reading 
through the testimony and looking at what you had done since I 
left the Lieutenant Governor's office, you've come a long way. 
Most of the things I really wanted to get into have been 
covered, which is a description of what you're doing; but, we 
don't have.
    And I'm sorry the admiral left, because I thought he'd be 
sticking around and we could put him back up here and ask him 
some questions. Apparently, your floating devices, Mr. Vass, 
are not sea debris.
    Mr. Vass. No. They are not. They're a very controlled 
navigation devices that communicate and make their own 
decision.
    Mr. Garamendi. Apparently, from your last comments, the 
Coast Guard recognizes there's something more than debris.
    Mr. Vass. They do, but they don't have a legal definition. 
So they really have. That is a challenge for us.
    Mr. Garamendi. The Chairman came up with a definition, 
``unpersoned floating vessel.''
    Mr. Vass. Unpersoned floating vessel, yeah. We usually 
refer to it as an unmanned surface vehicle. But, now----
    Mr. Garamendi. It's very sexist?
    Mr. Vass [continuing]. Yeah, very sexist. So I guess it 
will be unpersoned surface vehicle from now on.
    Mr. Garamendi. I think where I'd like to take this is to 
where you're talking about the integration of your technologies 
into the Coast Guard's operations.
    Mr. Vass. Yeah.
    Mr. Garamendi. The Chairman correctly pointed out that the 
Coast Guard really isn't well-suited to develop the technology, 
but rather to use it and adapt it. And I think what I'd like, 
to make a statement or statements, and then have some response. 
It seems to me we ought to encourage the Coast Guard to work 
with your systems, and you have four or five different systems 
here, to acquire the knowledge to determine how best to use the 
systems that you have to inform their normal work.
    Mr. Vass. Yes.
    Mr. Garamendi. This also involves the Navy. And I just 
stepped out during the early parts of your testimony to take to 
the Air Force about their ISRS, some of which are applicable 
here. So I think what I'd like to do is how would you, if the 
Coast Guard was still here, if Admiral Butt was still here, I'd 
ask how would you integrate. How would you capture the 
information? How would you see the Coast Guard doing that? 
Let's start this way. We'll go left to right, or right to left. 
Mr. Vass, if you would?
    Mr. Vass. As I mentioned before, I would look at an 
integrated platform from undersea assets, surface assets, 
aerial assets and satellite assets. The nice thing about our 
platform is it patrols like a vessel patrols. So someone trying 
to interdict your coastline.
    Mr. Garamendi. Excuse me. I'm more interested in the 
organization. How would you want them to work with you? How 
would you want the Coast Guard to work with you?
    Mr. Vass. So, for us, specifically, would be to basically 
hire us as a service to provide information to them where 
they're most interested and where they have the most critical 
information to gather, and define for us what information needs 
to be gathered on a 24 by 7 basis. Tell us what format they 
want that information that will be most valuable to them, and 
then interact with us to help us improve the information we 
provided them and make our platform better to meet their needs.
    Mr. Morrow. I would second the services approach, however, 
I'd also add that in their system of systems architecture, I 
found it always works best if you define the interface 
standards as close to commercially viable standards as 
possible. That way I'm motivated. I can hire people that know 
those interfaces to remain compatible with their overall 
systems architecture.
    Mr. Garamendi. So put aside the not invented here syndrome 
and go with already is invented.
    Mr. Morrow. Hm-hmm. Correct, yes.
    Mr. Garamendi. But you cover a variety of systems, your 
organization or association does. Has the Coast Guard worked 
with your association in developing knowledge about the various 
types of systems that are out there?
    Mr. Morrow. I don't know that they have. I'm sure they've 
talked. They are investigating small UASs as we speak. We've 
done one demo with them, and we'll do another first quarter of 
next year. So they are beginning that communication process.
    Mr. Garamendi. Ms. Hazard, as you pointed out very 
specifically how they could, if you'd like to go back and 
expand on that I'd be happy to hear it.
    Ms. Hazard. Sure. I made two points. I guess one using 
small scale demonstrations to the scale up to opportunities 
that can provide the analysis, costs and many requirements for 
doing these types of demonstrations. But on the data side for 
integration, within academia there is a whole host of folks 
working on common data formats and inoperability. And so I 
guess for the Coast Guard my recommendation would be to use the 
open geospatial consortium, which is a global group working on 
data standards.
    We are using network common data formats that can integrate 
easily within Google maps, open layers. A lot of the open 
source architecture, and even for a lot of the time series 
data, asking time series and just the basic file structure 
hierarchy works really well for designing and integrating 
these, and we do that within our lab on multiple meteorological 
sensors, autonomous vehicles, HF radar, and so I can understand 
the conflict of having classified and unclassified systems.
    So my recommendation, again, would be using the modular 
approach and only using those data fees that are required for 
your mission so that you're not cluttering your work space for 
these large standards and they're getting the information that 
is needed. And a lot of the open architecture can down-size 
those data feeds, because when you're integrating large, 
satellite images and everything, they can be massive and that 
can bog down a system, because you're transmitting gigabytes 
into your application. But, newer standards are able to 
disseminate that data, and so that the viewer is only looking 
at--your system is only bringing in a small portion of that 
data for your operating picture. And, so, my recommendation 
would be to use those open architecture standards and Web 
services. And then for the classified systems, they might have 
the entire picture. But, for the mission-driven systems, to 
keep it in the unclassed level, just building modular 
applications.
    Mr. Garamendi. Garfield?
    Dr. Garfield. So you let the education professor in me come 
to the forefront. What's really worked for us was actually 
getting into the Coast Guard and talking to people. I mean 
these are very busy people. They don't have much time. What we 
did is we actually went to them, said, look. We're going to 
give you presentations. We're going to give you workshops.
    The lieutenant commander who is in charge of search and 
rescue in San Francisco, she had my phone number. And so when 
there was an incident and they had questions, she knew who to 
contact. She could get information from us, directly. And I 
really think that through the IOOS mechanism and the regional 
associations, building those partnerships is really the 
critical way to go forward with this.
    Mr. Garamendi. Mr. Chairman, it is not clear to me how the 
Coast Guard is learning and using, and certainly integrating 
these technologies. There's some indication that they do some. 
From the earlier testimony today, it appears to be so they are 
thinking about building massive systems of their own, rather 
than using what might already be available.
    I'm not exactly sure how to proceed here until we have a 
conversation with the Coast Guard about how they are accessing 
systems that can be useful to them in gathering and achieving 
their goal on understanding the marine environment. Perhaps we 
ought to ask them that kind of question in detail. And if the 
answer comes back--because I think it might--that it's sort of 
but not much, we may want to develop some sort of a round table 
system or force them to develop it. And sit down with the 
various kinds of systems and technologies that are available 
and learn, rather than trying to invent it themselves and 
develop it themselves, which proves to be difficult and not 
very successful.
    Mr. Hunter. Absolutely. In fact, what we'll do, we'd like 
to follow this up with another hearing or a round table when 
the Coast Guard stays, and you're here at the same time. And 
the Coast Guard captain back there listen to us, but it would 
be great if we could have some interaction and be able to ask 
them, hey, are you using this right now, and exactly how do you 
want to use it to them. And I don't think they are prepared 
right now to answer that question.
    I also don't think they are prepared to talk about how it 
would change their recapitalization efforts; change what type 
of ships they need to build; how many of those ships they need 
to build; where they're going to operate those ships; what 
their conduct of operations. All of that gets impacted as you 
bring technology into the game, and it is going to put pressure 
on different sides of their systems. And you're going to have 
things change. And I think we need to figure out what that is.
    This is not a full hearing. A lot of people did not come, 
but don't let that take away from how important this is and 
what your testimony will be used for going forward. Because 
John is here and I'm here. We had Mr. Meehan and Ms. Hahn, and 
we are going to take this and make sure that they make the 
right decisions using what's available to us right now. We are 
going to make sure of it, because if we don't get involved and 
conduct the oversight, then bad things happen, as we've 
learned.
    So I'd like to thank everybody for being here and with 
that, if Mr. Garamendi has no more questions, the hearing is 
adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
